THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                College Park, Maryland




              Financial and Compliance Audit
                             of
                       Indirect Costs
                   For the Years Ended
          December 31, 1997, 1998, 1999 and 2000




                                      M.D. Oppenheim & Company, P.C.
                                            Certified Public Accountants
                                                    8403 Colesville Road
                                                               Suite 340
                                         Silver Spring, MD 20910-3367
           THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.

                                      Table of Contents

                                                                                   Page

Acronyms                                                                              1

Section I - Introduction and Audit Results:
   Background                                                                         3
   Objective and Scope of Audit                                                       3
   Summary of Audit Results                                                           5
   Exit Conference                                                                    7

Section II - Findings and Recommendations:
   Independent Auditors' Report on Compliance and Internal Control                    9
   Findings and Recommendations on Compliance                                        11
   Findings and Recommendations on Internal Control                                  16

Section III - Financial Schedules:
   Independent Auditors' Report                                                     20
     Financial Schedules:
     Schedule A - Schedule of Over/(Under) Recovered Indirect Costs on National
                     Science Foundation Awards                                      22
     Schedules B-1 to B-4 - Schedule of Direct/Indirect Costs                       23
     Schedule C, C-1 to C-5 - Schedule of Auditors' Adjustments and Eliminations    27
     Notes to Financial Schedules                                                   38

Section IV - Supplementary Information:
   Independent Auditors' Report on Supplementary Information                        40
   Schedule D-1 to D-10 - Detailed Schedules of Over/(Under) Recovered Indirect
                          Costs by NSF Award                                        41

Section V - Awardee's Response                                                      51
	




            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.

                                        Acronyms


    Acronym    Explanation of Acronym

     AAPT      American Association of Physics Teachers, Inc.

    AICPA      American Institute of Certified Public Accountants

    DACS       Division of Acquisition and Cost Support

     DGA       Division of Grants and Agreements

     FCTR      Federal Cash Transactions Report

     IDCP      Indirect Cost Proposal

    MTDC       Modified Total Direct Costs

     NSF       National Science Foundation

     OIG       Office of Inspector General

     OMB       Office of Management and Budget




                                                                    1
           SECTION I

INTRODUCTION AND AUDIT RESULTS
                               SECTION I -
                     INTRODUCTION AND AUDIT RESULTS


                                      BACKGROUND

        The American Association of Physics Teachers, Inc. (AAPT) is a not-for-profit, tax-
exempt organization established with the objective of improving the quality of physics
instruction and enhancing the appreciation of the role of physics in our culture.

        AAPT receives approximately $3.6 million of annual revenues, mainly from
publication subscriptions, membership dues, meetings, workshops and federal financial
assistance. Of the $3.6 million of annual revenues, federal financial assistance approximates
$711,000. During the four-year period of our audit, the National Science Foundation (NSF)
provided 100% of the federal financial assistance to AAPT, and, as such, was the cognizant
federal audit agency for AAPT's indirect cost rates.

                          OBJECTIVE AND SCOPE OF AUDIT

       At the request of the NSF, M. D. Oppenheim & Company, P.C. conducted a financial
and compliance audit of the indirect cost proposals prepared by AAPT for the years ended
December 31, 1997, 1998, 1999 and 2000 to determine final indirect cost rates for those
years. During the period of our audit, there were ten NSF awards. Two awards were based
on a maximum provisional rate specified in the award letter and/or budget. One did not have
any indirect costs. The other seven awards did not state the type of rate in the award letter
and/or budget. Our audit objectives were: (1) to determine whether AAPT complied with
federal requirements in computing its indirect cost proposal; (2) determine whether AAPT
over or under-recovered indirect costs on each NSF award active during the audit period,
based on audit-determined indirect cost rates, and (3) to evaluate the adequacy of AAPT's
internal controls to administer, account for, and monitor indirect cost charges to federal
awards. Over/under recovery of costs was calculated using provisional rates.

To accomplish the objectives of the audit, we:

•      Conducted an on-site audit survey with sufficient observations, interviews, and
       examinations of documents to make an initial determination whether the maximum
       provisional rates were based on allowable indirect costs and whether controls to
       administer, account for, and monitor indirect costs are adequate to ensure compliance
       with federal cost principles and administrative requirements.

•      Prepared an audit planning document for OIG review and approval. The planning
       document included a description of AAPT's organizational structure and the process
       used to administer, account for, and monitor indirect cost charges to federally
       sponsored awards. As part of the planning process we performed an assessment of
       audit risk and obtained an understanding of AAPT's control environment.

                                                                                           3
•      Prepared an internal control audit planning document, for OIG review and approval.
       The internal control planning document included the proposed audit
       programs/procedures for testing the significant internal controls necessary to
       accurately administer, account for, and charge indirect cost charges to federally
       sponsored awards. As part of the internal control process, we assessed the areas of
       control environment, risk assessment, information and communication, monitoring
       and control activities.

•      Prepared a substantive audit testing planning document for OIG review and approval.
       The substantive planning document included the preliminary results of the internal
       control phase of the audit, including any findings and recommendations and the
       proposed audit program, which included the tests on compliance with applicable laws
       and regulations and substantive testing procedures to be applied to the indirect cost
       pools and the direct cost base.

•      Performed testing procedures so as to determine whether the indirect cost proposals
       and the resultant indirect cost rates comply with OMB Circulars A-I10, Uniform
      Administrative Requirements for Grants and Agreements with Institutions of Higher
       Education, Hospitals and Other Nonprofit Organizations, and A- 1 22, Cost Principles
      for Non-Profit Organizations.

       We conducted our audit in accordance with AICPA auditing standards generally
accepted in the United States of America, Comptroller General's Government Auditing
Standards and included tests of the accounting records and other auditing procedures that we
considered necessary to fully address the audit objectives.




                                                                                          4
	                               SUMMARY OF AUDIT RESULTS

            We identified significant deficiencies in AAPT's calculation of its indirect cost rates
    for the four-year period ending December 31, 2000. The total audit adjustments and
    eliminations necessary to correct inaccuracies in the rate calculations amount to $929,175 in
    total reductions to the indirect cost pools and $414,025 total additions to the direct cost bases
    for the four-year period. As a result, AAPT over-charged $58,906 or 8% of total claimed
    indirect costs on five of its NSF awards active during the four years.

            AAPT included a schedule of its indirect cost calculation in its Single Audit report for
    the years 1997-2000. However, NSF never recognized receipt of AAPT's indirect cost
    proposals. As a result, AAPT was assigned a maximum provisional rate of 40.51 % that was
    not finalized for four years. This rate is higher than the audited rate by as much as 11 % and
    resulted in the $58,906 cost over-recovery. The deficiencies and internal control weaknesses
    cited in our report could affect the reliability of AAPT cost information that NSF would use
    to establish future AAPT indirect cost rates.          Therefore, because of these control
    weaknesses, NSF should continue to use a maximum provision indirect cost rate with AAPT,
    although OMB encourages the use of predetermined indirect cost rates.

          We found the following instances of non-compliance and internal control weaknesses
    in AAPT's accounting for its indirect costs:

    Material Non-Compliance

    •      AAPT misclassified $535,193 of direct program costs as indirect costs. This
           represents 11 % of total indirect costs for the audit period. These direct costs consisted
           of AAPT support for its primary mission of improving the quality of physics
           instruction and enhancing the appreciation of the role of physics in our culture. These
           errors occurred because the staff lacked adequate training regarding the applicable
           federal cost principles.

    •      AAPT did not offset various sources of income used to reimburse administrative
           payroll and operational expenses in the indirect cost pools totaling $322,269. This
           represents 6% of total indirect costs for the audit period. These errors occurred
           because the staff lacked adequate training regarding the applicable federal cost
           principles.

    •      AAPT did not exclude subcontract costs from the direct cost base totaling $121,168.
           This represents 2% of total direct costs for the audit period. It appears these errors
           were due to an oversight when the indirect cost proposals were prepared since some
           years excluded more costs than other years.

    •     AAPT did not submit an indirect cost proposal to NSF for the four-year period ending
          December 31, 2000. AAPT believed that schedules submitted as an attachment to its
          Single Audit report met its required yearly submission of an indirect cost proposal.
          The lack of compliance was undetected by AAPT because NSF continued to annually
          fund the organization. It was not until May 2001 that NSF notified AAPT in writing
          that its indirect cost submissions were outstanding for the four-year period.



                                                                                                   5
Non-Material Non-Compliance

•      AAPT included unallowable costs for bad debt expense, penalties, some travel
       expenses, entertainment and unrealized investment losses in its indirect cost pools
       totaling $42,351. This represents .8% of total indirect costs for the audit period. This
       occurred because its staff overlooked specific federal regulations stating that such
       costs could not be charged to the federal government.

Internal Control Weakness

        AAPT does not have adequate control procedures related to the preparation and
submission of its IDCP. We identified material errors in AAPT's calculation of its indirect
cost rates for the four-years ended December 31, 2000 that resulted in audited indirect cost
rates as much as 11 percentage points lower than the approved maximum provisional rate.
We found that AAPT staff did not completely understand federal regulations related to the
preparation and submission of IDCPs and did not have written policies and procedures
documenting this process. In addition, we found immaterial control weaknesses related to
AAPT's time and effort reporting, and an adjustment totaling $29,362 was required because
of inadequate source documentation provided to support some expenditures.

        To address the compliance deficiencies and internal control weaknesses, we
recommend that the Directors of NSF's Division of Acquisition and Cost Support, (DACS)
and the Division of Grants and Agreements (DGA) require that AAPT develop and
implement written policies and procedures that address (1) the proper classification of direct
and indirect costs to ensure that AAPT's future indirect cost rate proposals do not include
mission-related costs in its indirect cost pools, (2) identification of applicable credits related
to AAPT's operations, (3) identification of distorting costs that should be excluded from the
direct cost base, and (4) the adequacy and retention of original supporting documentation.
We also recommend that NSF require AAPT to ensure its accounting staff receives training,
as needed, in the preparation of indirect cost proposals and federal cost principles. AAPT
should work with NSF to ensure that its indirect cost rates are finalized timely.

Summary of Auditee's Response

        With respect to the compliance issues presented in the report, AAPT has indicated
their concurrence with the findings regarding the misclassification of direct costs as indirect
costs, the lack of proper offset of applicable credits, the incorrect adjustment of the direct
cost base, failure to submit an indirect cost proposal annually, and unallowable costs
included in the indirect cost pool. They indicated that written policies and procedures will be
developed and implemented to address these issues and that its IDCP will be submitted
annually.

        With respect to the internal control findings, AAPT also indicated concurrence with
the need to improve their procedures related to the preparation of the IDCP, the need to
retain adequate original supporting documentation, and the need to strengthen controls over
their time and effort reporting system. They indicated that the staff will attend training on
how to develop indirect cost proposals and that written policies and procedures will be
developed and implemented to address these control weaknesses.


                                                                                                6
                                  EXIT CONFERENCE

       An exit conference was held on March 4, 2002 at the Auditee's office located at One
Physics Ellipse, College Park, Maryland. The findings on compliance and internal control
along with the adjustments, eliminations and exclusions related to the indirect cost proposals
were discussed by the following individuals.




                                                                                            7
         SECTION II

FINDINGS AND RECOMMENDATIONS




                               s
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


              INDEPENDENT AUDITORS' REPORT ON COMPLIANCE
                        AND INTERNAL CONTROL

We have audited the summary schedule of over/(under) recovered indirect costs
(Schedule A) and the schedules of indirect/direct costs (B-1 to B-4) which summarize the
indirect cost proposals prepared by The American Association of Physics Teachers, Inc. for
the years ended December 31, 1997, 1998, 1999 and 2000, and have issued our report
thereon dated March 4, 2002. We conducted our audit in accordance with auditing standards
generally accepted in the United States of America, the standards applicable to financial
audits contained in Government Auditing Standards issued by the Comptroller General of the
United States and the National Science Foundation Audit Guide (September 1996).

Compliance

As part of obtaining reasonable assurance about whether The American Association of
Physics Teacher's financial schedules are free of material misstatement, we performed tests
of its compliance with certain provisions of laws, regulations, and policies, noncompliance
with which could have a direct and material effect on the determination of the financial
schedules amounts. However, providing an opinion on compliance with those provisions
was not an objective of our audit and, accordingly, we do not express such an opinion. The
results of our tests disclosed instances of noncompliance, as reported in the accompanying
Findings and Recommendations on Compliance and the adjustments and eliminations noted
in Schedules C-1 to C-5, that are required to be reported under Government Auditing
Standards and the National Science Foundation Audit Guide.

Internal Control Over Financial Reporting

In planning and performing our audit, we considered The American Association of Physics
Teachers' internal control over financial reporting in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial schedules and not to
provide assurance on the internal control over financial reporting. However, we noted
certain matters involving internal control over financial reporting and its operation that we
consider to be reportable conditions. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control


                                                                                               9
over financial reporting that, in our judgment, could adversely affect The American
Association of Physics Teachers' ability to record, process, summarize and report financial
data consistent with the assertions of management in the financial schedules. The reportable
conditions noted are described in the accompanying Findings and Recommendations on
Internal Control.

A material weakness is a condition in which the design or operation of one or more of the
i nternal control components does not reduce to a relatively low level the risk that
misstatements in amounts that would be material in relation to the financial schedules being
audited may occur and not be detected within a timely period by employees in the normal
course of performing their assigned functions. Our consideration of the internal control over
financial reporting would not necessarily disclose all matters in the internal control that
might be reportable conditions and, accordingly, would not necessarily disclose all reportable
conditions that are also considered to be material weaknesses. However, we consider the
reportable condition described in finding I to be a material weakness.

This report is intended solely for the information and use of The American Association of
Physics Teachers, Inc. and the National Science Foundation and is not intended to be and
should not be used by anyone other than these specified parties.




March 4, 2002




                                                                                           10
              THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                        Findings and Recommendations on Compliance
                For the years ended December 31, 1997, 1998, 1999, and 2000

                                        Material Deficiencies

1. Misclassification of Direct Costs as Indirect Costs

        OMB Circular A-122 states that "[d]irect costs are those that can be identified
specifically with a particular final cost objective, i.e., a particular award, project, service, or other
direct activity of an organization." In a broader sense, direct costs are those that can be
specifically identified with an organization's mission. AAPT's mission is to improve the quality
of physics instruction and to enhance the appreciation of the role of physics in our culture.
Therefore, all costs specifically identifiable with those activities should be classified as direct
costs. In addition, OMB Circular A-122 states that "the costs of activities performed primarily
as a service to members, clients, or the general public when significant and necessary to the
organization's mission must be treated as direct costs whether or not allowable...."

       For the four years under audit, AAPT erroneously included mission-related costs totaling
$535,193 in the indirect cost pool. The expenses consisted of various marketing and award
expenditures, collection of membership dues, an international science and engineering fair, and
the Campaign for Physics for membership promotion and recruitment. These expenditures were
included in administrative indirect cost pools identified as the "Executive Office", "Membership
Dues" and "Display and Outreach" cost centers.

        AAPT included these costs in the indirect cost pool because the staff lacked adequate
training regarding the applicable cost principles requiring all mission-related costs to be treated
as direct program costs.

Recommendation

        We recommend that the Directors of NSF's Divisions of DACS and DGA require that
AAPT develop and submit for NSF approval written policies and procedures for the
classification of direct and indirect costs, and ensure that AAPT's future indirect cost rate
proposals do not include mission-related costs in its indirect cost pools. In addition, we
recommend that NSF ensure that AAPT receives training on how to properly and accurately
prepare an indirect cost proposal.

Auditee's Response

        We concur and will attend training on how to prepare an indirect cost proposal. We will
write policies and procedures for the classification of direct and indirect costs.

Auditor's Response to Auditee's Response

         AAPT's proposed actions address the weaknesses noted. We recommend that the
Director's of NSF's DGA and DACS require that AAPT provide NSF with documentation that
its policies and procedures have been revised and implemented.
                                                                                                     11
2. Applicable Credits Not Properly Offset

        OMB Circular A-122 requires that "to the extent that such credits accruing or received by
the organization relate to allowable cost, they shall be credited to the Federal Government."
AAPT did not apply credits and various revenues as offsets to costs recorded in the indirect cost
pool. For example, AAPT received $200,133 of program income that was used to reimburse the
organization for some of its Executive Administrative department payroll. These payroll costs
are included in the indirect cost pool and should be reduced in the indirect cost rate calculation to
recognize the extent to which AAPT has already been reimbursed for these costs. Other credits
found that were not properly offset against indirect costs included (1) the write-down of accounts
payable totaling $106,030, which AAPT had recorded as an increase to revenue rather than a
reduction of expense, (2) member donations received to defray administrative and membership
costs included in the indirect cost pool; and (3) $16,106 of building rental income which offset
occupancy costs. Because these credits were not applied to reduce costs in the indirect cost rate
calculations, it resulted in the rates being overstated.

        AAPT staff lacked adequate training regarding the federal cost principles, specifically the
cost principle related to the offset of applicable credits.

Recommendation

        We recommend that the Directors of NSF's Divisions of DACS and DGA require that
AAPT develop and implement policies and procedures to identify applicable credits related to
AAPT's operations and ensure that future indirect cost proposals reflect the correct application
of these offsets.

Auditee's Response

       We concur and will write policies and procedures to identify applicable credits and
properly offset.

Auditor's Response to Auditee's Response

        AAPT's proposed actions address the weaknesses noted. We recommend that the
Director's of NSF's DGA and DACS require that AAPT provide NSF with documentation that
its policies and procedures have been revised and implemented.




                                                                                                  12
3. Direct Cost Base Incorrectly Adjusted

        OMB Circular A-122 states that a total direct cost base used in the indirect cost
calculation should exclude distorting items such as major subcontracts. In addition, direct costs
should be allocated their fair share of the organization's indirect costs only if they benefit from
the organization's indirect costs. We found that AAPT did not properly exclude all subcontract
costs from the direct cost base totaling $121,168.

       It appears that AAPT did not adequately review the indirect cost proposal to ensure all
adjustments and eliminations were complete and accurate as some years excluded most of the
costs while other years did not.

Recommendation

        We recommend that the Directors of NSF's Divisions of DACS and DGA require that
AAPT develop and implement written policies and procedures to identify distorting costs that
should be excluded from the direct cost base and ensure that AAPT review its annual indirect
cost proposal for accuracy and compliance with the federal cost principles prior to submission to
NSF.

Auditee's Response

       We concur and will write policies and procedures to identify costs that should be
excluded from the direct cost base.

Auditor's Response to Auditee's Response

         AAPT's proposed actions address the weaknesses noted. We recommend that the
Director's of NSF's DGA and DACS require that AAPT provide NSF with documentation that
its policies and procedures have been revised and implemented.




                                                                                                13
	




    4.        Indirect Cost Proposal Not Submitted Annually

             OMB Circular A-122 specifies that "[o]rganizations that have previously established
    indirect cost rates must submit a new indirect cost proposal to the cognizant agency within six
    months after the close of each fiscal year." AAPT believed it had properly submitted its indirect
    cost proposal in a timely manner by including schedules of the calculation of its indirect cost
    rates in its Single Audit report. As AAPT had not received any response from NSF and
    continued to receive funding from the agency on a yearly basis, AAPT assumed that it was in
    compliance with federal regulations. However, in May 2001 NSF corresponded with AAPT
    requesting it submit its indirect cost proposals for the years 1997 - 2000. This was the first
    communication AAPT received from NSF to indicate it may not be in compliance concerning its
    indirect costs submissions. The result was that AAPT operated with the same maximum
    provisional rate over the four-year period. Additionally, because of a lack of knowledge about
    the indirect cost rate process, AAPT also did not contact NSF during this same period to ensure
    its rates were finalized in a timely manner. This has left the organization vulnerable for a
    liability for over-recovery of costs.

    Recommendation:

             We recommend that the Directors of NSF's Divisions of DACS and DGA ensure that
    AAPT submit its indirect cost proposal annually and contact NSF, as needed, to ensure its
    i ndirect cost rate is finalized in a timely manner.

    Auditee's Response

              We concur and will submit an indirect cost proposal annually and follow up with NSF as
    needed.

    Auditor's Response to Auditee's Response

           AAPT's proposed actions address the weaknesses noted. We recommend that the
    Directors of NSF's DGA and DACS require that AAPT submit its indirect cost proposal
    annually and ensure that the indirect cost rate is finalized in a timely manner.




                                                                                                   14
              THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                        Findings and Recommendations on Compliance
                For the Years ended December 31, 1997, 1998, 1999, and 2000

                                     Non-Material Deficiency

5. Unallowable Costs Included in the Indirect Cost Pool

        OMB Circular A-122 and federal regulations state that costs such as bad debt expense,
penalties, some travel expenses, entertainment costs, and unrealized investment losses are
unallowable costs in the indirect cost pool. Federal cost principles state that travel costs should
be allowable if they are reasonable. In the absence of specific written AAPT travel policies,
Standard Government Travel Regulations provide a measure of approved per diem and mileage
rates. Unallowable costs identified totaled $42,351. In some instances, AAPT included these
costs in its indirect cost pool because its accounting staff overlooked the federal provisions that
state these costs are not allowable. At other times, AAPT staff lacked adequate knowledge and
training regarding the applicable federal cost principles for certain unallowable expenditures.

Recommendation:

        We recommend that the Directors of NSF's Divisions of DACS and DGA ensure that
AAPT complies with all federal regulations and the provisions in OMB Circular A-122
regarding the unallowability of specific cost categories. In addition, we recommend that NSF
ensure that AAPT's chart of accounts be designed to facilitate the identification and segregation
of unallowable charges.

Auditee's Response

       We concur and will review our chart of accounts to ensure the identification and
segregation of unallowable charges.

Auditor's Response to Auditee's Response

        AAPT's proposed action address the weaknesses noted. We recommend that the
Directors of NSF's DGA and DACS require that AAPT provide NSF with documentation that its
chart of accounts has been designed to facilitate the identification and segregation of unallowable
charges.




                                                                                                15
	




                  THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                          Findings and Recommendations on Internal Control
                    For the Years ended December 31, 1997, 1998, 1999, and 2000

                                            Material Weakness

    1.      Inadequate Procedures Related to the Preparation of the IDCP

            Our audit identified significant weaknesses in the Association's processes for accounting
    for indirect cost charges to NSF awards. In particular, AAPT has experienced high turnover
    among its financial staff over the last several years, which has played a role in the staffs' lack of
    understanding of federal cost principles related to indirect costs. In addition, the problems
    caused by staff turnover were exacerbated because AAPT did not have written procedures
    related to its indirect cost calculation process. Written procedures would have provided a greater
    degree of continuity and guidance to new employees unfamiliar with federal regulations or
    AAPT's federal grant administration operations.

             As a result, we identified material errors in AAPT's calculation of its indirect cost rates
    for the four-year period ended December 31, 2000 (see Summary of Audit Results). AAPT's
    i ndirect costs were overstated by a net amount of $929,175 while its direct costs were
    understated by $414,025. This resulted in AAPT proposing to NSF indirect cost rates as much as
     11 percent higher than it actually incurred. In addition, NSF was over-charged $58,906, or 8%
    of total claimed indirect costs, on 5 of the NSF awards active in the audit period.

            Although OMB encourages the use of predetermined indirect cost rates, these internal
    control weaknesses suggest that NSF should continue to use a maximum provisional indirect cost
    rate with AAPT. A maximum provisional rate is a "temporary rate established for an award to
    permit funding and reimbursement of indirect cost pending establishment of a final rate using
    actual cost data." In cases where an awardee is new to NSF funding or if there are significant
    audit-reported compliance deficiencies and/or internal control weaknesses, the use of a
    maximum provisional rate is warranted because it "limits indirect cost recoveries to the lower of
    the maximum provisional rate established at the time of the award, or the final rate...."

    Recommendation

            We recommend that the Directors of NSF's DACS and DGA require that AAPT develop
    written policies and procedures documenting its indirect cost calculation process and that AAPT
    financial staff receive training on how to properly and accurately prepare an IDCP.

    Auditee's Response

            We concur and will develop policies and procedures to document our indirect cost
    calculation process. Staff will attend training on how to develop indirect cost proposals.

    Auditor's Response to Auditee's Response

            AAPT's proposed actions address the weaknesses noted. We recommend that the
    Directors of NSF's DGA and DACS require that AAPT provide NSF with documentation that its
    policies and procedures have been revised and implemented.

                                                                                                     16
             THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                     Findings and Recommendations on Internal Control
               For the Years ended December 31, 1997, 1998, 1999, and 2000

                                   I mmaterial Weaknesses

1.   Inadequate Source Documentation

      OMB Circular A-110 requires that award recipients have a financial management
system that provides accounting records supported by source documentation. For various
invoices totaling $29,362, AAPT was not able to provide adequate support for the
expenditures other than check requests, credit card statements with no corresponding
receipts, or cost allocation spreadsheets without a documented methodology. As a result, we
could not determine if the expenditures were valid, accurate, or allowable. Because of high
personnel turnover in the finance department over the last four years, AAPT was unable to
identify the reasons for the lack of documentation for these costs.

Recommendation:

       We recommend that the Directors of NSF's Divisions of DACS and DGA require AAPT
to develop written policies and procedures concerning the adequacy and retention of original
supporting documentation.

Auditee's Response

        We concur and will develop policies and procedures concerning the adequacy and
retention of original supporting documentation.

Auditor's Response to Auditee's Response

        AAPT's proposed actions address the weaknesses noted. We recommend that the
Directors of NSF's DGA and DACS require that AAPT provide NSF with documentation that its
policies and procedures have been revised and implemented.




                                                                                         17
2.     Weak Controls Over Time and Effort Reporting

        NSF requirements state that accounting systems must provide for the maintenance of
adequate source documentation as well as complete and accurate financial reports. We found
that over the four-year audit period, internal control weaknesses related to AAPT's time and
effort reporting improved. However, we found throughout the period personnel files were
not updated with the latest pay increases supporting the pay rates being charged to the
government, and personnel files were missing direct deposit authorizations. Additionally,
the Director of Finance is responsible for summarizing and entering time allocations into the
payroll job report system, but these reports are not being independently reviewed to ensure
the accuracy of the data entry. Although these audit errors did not result in an indirect cost
rate adjustment, they indicate there are still general control weaknesses in AAPT's time and
effort reporting process. Because payroll costs represent the most significant costs charged
to the government as both direct and indirect costs, it is important that salary charges to an
award can be adequately supported.

Recommendation

      We recommend that the Directors of NSF's DACS and DGA require that AAPT
develop written policies and procedures to ensure adequate controls are established and
implemented to strengthen its time and effort reporting system.

Auditee's Response

       We concur and will develop policies and procedures to ensure adequate controls over
the time and reporting system.

Auditor's Response to Auditee's Response

        AAPT's proposed actions will correct the weaknesses noted. We recommend that the
Directors of NSF's DGA and DACS require that AAPT provide NSF with documentation that its
policies and procedures have been revised and implemented.




                                                                                           18
    SECTION III

FINANCIAL SCHEDULES




                      19
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

                        INDEPENDENT AUDITORS' REPORT

We have audited the IDCPs The American Association of Physics Teachers, Inc. has
proposed as applicable to the National Science Foundation and other federal awards for the
years ended December 31, 1997, 1998, 1999 and 2000. These IDCPs, as presented in the
schedules of indirect/direct costs (Schedules B-1 to B-4) and the summary schedule of
over/(under) recovered indirect costs (Schedule A), are the responsibility of The American
Association of Physics Teachers, Inc.'s management. Our responsibility is to express an
opinion on Schedules A and B-1 to B-4 based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the
United States of America, Government Auditing Standards issued by the Comptroller
General of the United States, and the National Science Foundation Audit Guide (September
1996). Those standards and the National Science Foundation Audit Guide require that we
plan and perform the audit to obtain reasonable assurance about whether the financial
schedules are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the financial schedules. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

The accompanying financial schedules were prepared for the purpose of complying with the
requirements of the National Science Foundation Audit Guide as described in Note 1, and are
not intended to be a complete presentation of financial position in conformity with
accounting principles generally accepted in the United States of America.

In our opinion, the financial schedules referred to above present fairly, in all material
respects, the indirect cost proposals (Schedules B-1 to B-4) and the resultant over/(under)
recovered indirect costs (Schedule A) for the years ended December 31, 1997, 1998, 1999
and 2000, in conformity with the National Science Foundation Audit Guide, NSF Grant
Policy Manual, and on the basis of accounting described in Note 1.




                                                                                        20
In accordance with Government Auditing Standards, we have also issued our report dated
March 4, 2002 on our consideration of The American Association of Physics Teachers, Inc.'s
internal control over financial reporting and on our tests of its compliance with laws and
regulations. That report is an integral part of an audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

Schedules C-1 to C-5 contain indirect costs in the amount of $929,175 that are reductions to
the indirect costs proposed and $414,025 that are additions to the direct costs proposed for
the years ended December 31, 1997, 1998, 1999 and 2000. The final determination, as to
whether such costs are allowable or unallowable, will be made by the National Science
Foundation. The ultimate outcome of this determination cannot presently be determined.

This report is intended solely for the information and use of The American Association of
Physics Teachers, Inc. and the National Science Foundation and is not intended to be and
should not be used by anyone other than these specified parties.




March 4, 2002




                                                                                         21
	




                                         THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                            Summary Schedule of Over/(Under) Recovered Indirect Costs on National Science Foundation Awards
                                              For the years ended December 31, 1997, 1998, 1999 and 2000
                                                        Indirect Cost Approved in Award                         Indirect Cost Rates Proposed/Audited                                  Indirect Cost
                                                                                                            Year       Proposed       Audited      Schedule         Claimed                           Over/(Under)        Comment/
        Number              Award Period               Cost Method                 Rate                    Ended          Rate          Rate      Reference         To NSF            Per Audit        Recovered            Notes

     ESI-9619041         05/01/97-04/30/02        Maximum Provisional            40.50%           (A)    12/31/1997    45.76%        36.15%          B-I            $        40,744    $    36,412     $        4,332
                                                                                                         12/31/1998    49.45%        38.17%          B-2                     87,724         82,712              5,012
                                                                                                         12/31/1999    48.32%        37.23%          B-3                    105,316         96,813              8,503
                                                                                                         12/31/2000    47.20%        38.10%          B-4                    106,909         94,005             12 904

                                                                                                                                                                     $ 34
                                                                                                                                                                     0_693             $309,942            $30751

    DUE-9450160          03/15/95-02/28/01                                       42.00%           ( A)   1 2/31/1997   45.76%        36.15%          B-I             $ 64,510           $ 55,526           $ 8,984
                                                                                                         12/31/1998    49.45%        38.17%          B-2                53,104             46,353             6,751
                                                                                                         12/31/1999    48.32%        37.23%          B-3                45,671             40,483             5,188
                                                                                                         12/31/2000    47.20%        38.10%          B-4                22,786             20,670             2116

                                                                                                                                                                     $186,071           $ 163,032          $23,039

    DUE-9554625          03/15/96-02/29/00                                       40% plus         (A)    12/31/1997    45.76%        36.15%          B-I             $ 31,483           $ 31,779           $     (296)
                                                                            1 % of subcontracts          12/31/1998    49.45%        38.17%          B-2                27,338             36,501              (9,163)
                                                                                                         12/31/1999    48.32%        37.23%          B-3                16,615             15,435               1,180
                                                                                                         12/31/2000    47.20%        38.10%          B-4                 8,284              7 875                 409

                                                                                                                                                                     $ 83,720           $ 91,590               (7,870 1      (E)

    DUE-9554738          02/15/96-12/31/00                                        40.00%          (A)    12/31/1997    45.76%        36.15%          B-I                $    9,756      $    8,817         $      939
                                                                                                         12/31/1998    49.45%        38.17%          B-2                     7,769          11,503             (3,734)
                                                                                                         12/31/1999    48.32%        37.23%          B-3                    13,131          12,227                904
                                                                                                         12/31/2000    47.20%        38.10%          B-4                    21,213          20,205              1,008

                                                                                                                                                                        $ 51,869        $ 52,752           $    (883)      (C), (E)

    DUE-9816632          09/01/98-08/31/00                                        42.00%          (A)    12/31/1998     49.45%       38.17%          B-2                $ 13,898        $    9,644         $ 4,254
                                                                                                         1 2/31/1999    48.32%       37.23%          B-3                   3,837             3,595             242

                                                                                                                                                                        $ 17,731        $ 13,239           $ 4.496           (D)

    DUE-9821027           10/15/98-08/14/99                                                              12/31/1998    49.45%        38.17%          B-2                    N/A             N/A                 N/A
                                                                                                         12/31/1999    48.32%        37.23%          B-3                    N/A             N/A                 N/A          (B)

    ESI-9150111          07/01/91-06/30/97        Maximum Provisional             30.00%          (A)    12/31/1997    45.76%        30.00%          B-I                $ 27,849        $ 27,707           $      142

    ESI-9453830          06/15/94-05/31/97                                        48.00%          (A)    12/31/1997    45.76%        36.15%          B-I                $     1,940     $    1 462         $      478

    ESI-9150173           12/15/91-04/30/97                                       25.00%          (A)    12/31/1997     45.76%       36.15%          B-I                $               $    1,744         $ (1,744)         (E)

    DUE-9496330          08/31/94-06/30/97                                        24.63%          (A)    12/31/1997     45.76%       36.15%          B-I                $    3,346      $    4,610         $ C1 2541         (E)

    Grand Total                                                                                                                                                          $713,223    $666,078              $47,145         (F), (E)
    Comments/Notes:
     (A) Modified total direct costs. (Total direct costs less participant support costs and subaward costs.)
                                                                                                                                                                                                                               n
     (B) There were no indirect costs included in the budget or charged to this award.                                                                                                                                         f/D
                                                                                                                                                                                                                               C
     (C) The total direct and indirect costs reflected in AAPT's books of account exceeds the total maximum award budget by $43,141.
    (D) The total direct and indirect costs reflected in AAPT's books of account exceeds the total maximum award budget by $43,482.



                                                                                                                                                                                                                               a
    (E) (Under) recovered indirect costs cannot be recovered on this award since the award is closed and the total costs (direct and indirect) were billed up to the budget maximum.
    (F) Total reflects the net over-recovered indirect costs ($58,906) with the (under)recovered indirect costs ($11,761). See also Note (E).                                                                                  CD


    See accompanying notes to these financial schedules.
    *- The award letter did not state the type of rate.
                                                                                  Schedule B-1

            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                       Schedule of Direct and Indirect Costs
                      For the year ended December 31, 1997

                                                (B)             Auditors'
                                             Proposed          Adjustments           Allowable


                                                                               E
Expenses                                      Costs           & Eliminations           Costs
  Total direct costs

Indirect costs:
Salaries
Fringe benefits
Temporary help
Office insurance
Van
Depreciation
Equipment rental and maintenance
Professional fees
Office supplies and expense
Postage
Photocopying
Telephone
Travel and meetings
Library
Computer supplies and training
Printing
Miscellaneous
Officers' expenses
Committee expenses
AIP dues
Building expense (net of interest)
 Total indirect expenses                   $1235,686            $(245,298)           $   990,388
                                                          (Schedules C1 and C5)
Computation of Indirect Cost Rate:          Per AAPT            Per Audit
 Total indirect costs                      $ 1,235,686         $ 990,388
 Total direct costs                        $2,700,206          $2,739,447
Computed Indirect Cost Rate                      45.76%              36.15%

(A) In the indirect cost proposal, direct cost base expenses were not presented in expense
     categories, as were the indirect cost pool expenses.

(B) The amount agrees with the indirect cost rate proposal prepared by The Association of
    Physics Teachers, Inc. The total costs before auditors' adjustments and eliminations
    agree with AAPT's books of account.


See accompanying notes to these financial schedules.                                       23
	




                                                                                                              Schedule B-2

                     THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                Schedule of Direct and Indirect Costs
                               For the year ended December 31, 1998

                                                                  (B)                    Auditors'
                                                               Proposed                 Adjustments                     Allowable
	   Expenses                                                     Costs	                & Eliminations	                    Costs	
          Total direct costs

    Indirect costs:
    Salaries
    Fringe benefits
    Temporary help
    Office insurance
    Van
    Depreciation
    Equipment rental and maintenance
    Professional fees
    Office supplies and expense
    Postage
    Photocopying
    Telephone
    Travel and meetings
    Library
    Computer supplies and training
    Printing
    Miscellaneous
    Officers' expenses
    Committee expenses
    AIP dues
    Building expense (net of interest)

      Total indirect expenses                                $ 1,319,041                $(251,740)                   $ 1,067,301
                                                                                  (Schedules C2 and C5)
    Computation of Indirect Cost Rate:                        Per AAPT                    Per Audit
      Total indirect costs                                   $ 1,319,041                 $ 1,067,301
      Total direct costs                                     $2,667,387                  $2,796,503
    Computed Indirect Cost Rate                                      49.45%                      38.17%

    (A)      In the indirect cost proposal, direct cost base expenses were not presented in expense categories, as were the
             indirect cost pool expenses.
    (B)      The amount agrees with the indirect cost rate proposal prepared by the Association of Physics Teachers, Inc.
             The total costs before auditors' adjustments and eliminations agree with AAPT's books of account.
    (C)      The adjustments represent unallowable costs, reclass of indirect expenses to direct expenses and revenue
             offsets that are to be charged to the indirect cost pool but cannot be identified to a specific expense line item.


    See accompanying notes to these financial schedules.                                                                    24
	




                                                                                                           Schedule B-3

                  THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                             Schedule of Direct and Indirect Costs
                            For the year ended December 31, 1999

                                                               (B)                 Auditors'
                                                            Proposed              Adjustments                  Allowable
	   Expenses                                                  Costs	             & Eliminations	                 Costs
      Total direct costs

    Indirect costs:
    Salaries
    Fringe benefits
    Temporary help
    Office insurance
    Van
    Depreciation
    Equipment rental and maintenance
    Professional fees
    Office supplies and expense
    Postage
    Photocopying
    Telephone
    Travel and meetings
    Library
    Computer supplies and training
    Printing
    Miscellaneous
    Officers' expenses
    Committee expenses
    AIP dues
    Building expense (net of interest)

      Total indirect expenses                             $ 1,268,990             $(245,931)                  $ 1,023,059
                                                                            (Schedules C3 and C5)
    Computation of Indirect Cost Rate:                    Per AAPT                  Per Audit

      Total indirect costs                                $ 1,268,990              $ 1,023,059
      Total direct costs                                  $2,626,096               $2,747,671
    Computed Indirect Cost Rate                                   48.32%                  37.23%
    (A)   In the indirect cost proposal, direct cost base expenses were not presented in expense categories, as were the
          indirect cost pool expenses.
    (B)   The amount agrees with the indirect cost rate proposal prepared by the Association of Physics Teachers, Inc.
          The total costs before auditors' adjustments and eliminations agree with AAPT's books of account.
    (C)   The adjustments represent unallowable costs, reclass of indirect expenses to direct expenses and revenue
          offsets that are to be charged to the indirect cost pool but cannot be identified to a specific expense line item.


    See accompanying notes to these financial schedules.                                                                 25
	




                                                                                                            Schedule B-4

                   THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                              Schedule of Direct and Indirect Costs
                             For the year ended December 31, 2000



    Expenses
       Total direct costs

    Indirect costs:
    Salaries
    Fringe benefits
    Temporary help
    Office insurance
    Van
    Depreciation
    Equipment rental and maintenance
    Professional fees
    Office supplies and expense
    Postage
    Photocopying
    Telephone
    Travel and meetings
    Library
    Computer supplies and training
    Printing
    Miscellaneous
    Officers' expenses
    Committee expenses
    AIP dues
    Building expense (net of interest)

       Total indirect expenses                              $ 1,210,724              $(186,206)               $ 1,024,518
                                                                             (Schedules C4 and C5)
                                                            Per AAPT                 Per Audit

       Total indirect costs                                 $ 1,210,724            $ 1,024,518
       Total direct costs                                   $2,565,237             $2,689,330

    Computed Indirect Cost Rate                                    47.20%                  38.10%
    ( A)   In the indirect cost proposal, direct cost base expenses were not presented in expense categories, as were the
           i ndirect cost pool expenses.
    (B)    The amount agrees with the indirect cost rate proposal prepared by the Association of Physics Teachers, Inc.
           The total costs before auditors' adjustments and eliminations agree with AAPT's books of account.
    (C)    The adjustments represent unallowable costs, reclass of indirect expenses to direct expenses and revenue
           offsets that are to be charged to the indirect cost pool but cannot be identified to a specific expense line item.


    See accompanying notes to these financial schedules.                                                                  26
                                                                                   Schedule C

            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                   Schedule of Auditors' Adjustments and Eliminations
              For the years ended December 31, 1997, 1998, 1999 and 2000


The amounts as proposed by AAPT in their indirect cost proposals for the years ended
December 31, 1997, 1998, 1999 and 2000 (Schedules B-1 to B-4) required various
adjustments and eliminations to the indirect cost or direct cost pools. These adjustments
and/or eliminations are presented in Schedules B-1 to B-4. On the following pages in
Schedules C-1 to C-5 these adjustments and/or eliminations are detailed. Presented below is
a brief summary of the type of adjustment and/or elimination along with the relevant criteria.

       Adjustment and/or Elimination                                Criteria

Direct program costs included in the indirect OMB Circular A-122, Attachment A, Part B
cost pool for the following: Various Display (1) states that direct costs are those that can
and    Outreach      costs;   Award    costs; be identified specifically with a particular
International Science and Engineering Fair cost objective. In addition, OMB Circular A-
costs; AIP dues; and Campaign for Physics 122, Attachment A, Part C (1) states indirect
costs which are direct programs of AAPT.      costs are those that have been incurred for
                                              common or joint objectives and cannot be
                                              readily identified with a particular final cost
                                              objective.

Inadequate source documentation in the form OMB Circular A-110, Subpart C, paragraph
of a credit card receipt. The credit card 21 (b) (7) requires accounting records that
receipt was the only documentation are supported by source documentation.
available, with no actual vendor invoice;
therefore, determination of the allowability
of the cost cannot be determined.

Missing source documentation in the form of OMB Circular A-110, Subpart C, paragraph
a vendor invoice.       Without the vendor 21 (b) (7) requires accounting records that
invoice determination of the allowability of are supported by source documentation.
the cost cannot be determined.

Accounts receivable         written-off   were   OMB circular A-122, Attachment B, item 3,
included in the indirect cost pool.              states that bad debts, including losses
                                                 (whether actual or estimate) arising from
                                                 uncollectible accounts and other claims,
                                                 related collection costs are unallowable.

Various miscellaneous income included in         OMB Circular A-122, Attachment A, Part A
the Executive Account, general contributions     (5) states that applicable credits refers to
and grant income used for reimbursement of       those receipts, or reductions of expenditures
Executive Account administrative payroll         which operate to offset or reduce expense
were not deducted from the indirect cost         items that are allocable to awards as direct
pool.                                            or indirect costs.



                                                                                           27
                                                                                Schedule C (Cont.)

            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                   Schedule of Auditors' Adjustments and Eliminations
              For the years ended December 31, 1997, 1998, 1999 and 2000



       Adjustment and/or Elimination                                 Criteria

Penalties were included in indirect cost pool.   OMB Circular A-122, Attachment B, item 16,
                                                 states fines and penalties resulting from
                                                 violations of or failure of the organization to
                                                 comply with Federal laws are unallowable.

Reimbursed travel vouchers paid to               Federal regulations state that in order for
employees in excess of the maximum amount        travel costs to be considered reasonable,
allowable under federal regulations were         costs claimed may be measured against the
included in the indirect cost pool and direct    current per diem or mileage rates approved
cost base.                                       under Standardized Government Travel
                                                 Regulations.

Entertainment     costs     which   included     OMB Circular A-122, Attachment B, item 14,
celebrations for birthdays, employee picnics,    states that costs of amusement, diversion,
holiday parties and other similar type           social activities, ceremonials, and costs
expenses were included in the indirect cost      relating thereto, such as meals, lodging,
pool.                                            rentals, transportation, and gratuities are
                                                 unallowable.

Unrealized investment losses were charged        OMB Circular A-122, Attachment A, Part A,
to indirect costs from the "Building Expense     (1), (3), (a), states that reasonable costs are
Account".                                        of a type generally recognized as ordinary
                                                 and necessary for the operation of the
                                                 organization or the performance of the
                                                 award.

Subcontract costs were included in the direct    OMB Circular A-122, Attachment A, Part D,
cost base.                                       (2), (c), states that the distribution base may
                                                 be total costs (excluding capital expenditures
                                                 and other distorting items, such as major
                                                 subcontractors or sub grants), direct salaries
                                                 and wages, or other base which results in an
                                                 equitable distribution.




                                                                                              28
	




                                              THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                              Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                                                            For the year ended December 31, 1997


                                                                                                          Computer
           Adjustment and Elimination                                                    Travel and        Supplies                       Committee
                 Explanation                     Total          Salaries       Postage    Meeting        and Training   Miscellaneous     Expenses       AIP Dues

    Unallowable Costs

    Reimbursable travel costs in excess of
      federal guidelines.                  $        (316)   $              $              $      (316)   $                 $              $              $

    Penalties included in the indirect cost
      pool.                                       (3,088)                                                                       (3,088)

    Various    unallowable       expenses
     erroneously charged to indirect costs
     from the Miscellaneous Executive
     Account.                                     (1,713)                                                                       (1,713)

    Reclass of Indirect Expenses to Direct

    Various Display and Outreach costs
      erroneously charged to indirect costs      (18,890)                                     (18,890)

    Award costs erroneously charged to
     indirect costs.                             (22,156)                                                                                     (22,156)

    International Science and Engineering
      Fair costs charged to indirect costs.       (1,431)                                                                                      (1,431)

    AIP dues erroneously charged to
     indirect costs.                             (45,400)                                                                                                    (45,400)

    Campaign for Physics erroneously
     charged to indirect costs.                  (19,500)                                                                      (19,500)


                                                                                                                                                                        cu

                                                                                                                                                                        CD
    N
	




                                            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                         Schedule of Auditors' Adjustments and Eliminations - Indirect Costs (Cont.)
                                                           For the year ended December 31, 1997


                                                                                                                 Computer
           Adjustment and Elimination                                                              Travel and     Supplies                          Committee
                  Explanation                      Total            Salaries           Postage      Meeting     and Training      Miscellaneous     Expenses     AIP Dues

    Offsetting Revenues to Administrative
     Indirect Costs

    Miscellaneous income included in the
     Executive Account not offset against
     administrative indirect costs.            $    (11,959)    $                  $                $            $                $     (11,959)    $            $

    General contributions not offset against
     administrative indirect costs.                  (1,445)           (1,445)

    Grant income used for reimbursement
     of Executive administrative payroll
     not offset against indirect costs.            (103,157)        (103,157)


    Inadequate Source Documentation

    Inadequate source documentation -
      credit card charges [no detailed
      receipt (i.e. restaurant bill, plane
      ticket etc.) was provided to determine
      the propriety of the expense (i.e.
      alcoholic beverages, first class fare,
      etc.)].                                        (5,190)                            (5,190)

    Missing Documentation

    Missing       documentation (vendor
     invoice not available or insufficient                                                                                                                                   C
     detail provided) .                                                                                                                                                      p..
	                                                   (11,053)	                           (5,970)	                       (4,464)	            (619)



                                                                                                                                                                             n0
	       Total                                      (245,298)         1 4       2) $_(11_,1520)      "1 ,206)         -$-(A,464)       $_(3.6,$19)    $(23,587)   $(45,400)



    0
    w
	




                                              THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                              Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                                                            For the year ended December 31, 1998


                                                                                                Computer
            Adjustment and Elimination                                         Travel and        Supplies                      Committee
                   Explanation                       Total          Salaries    Meeting        and Training   Miscellaneous    Expenses       AIP Dues

    Unallowable Costs

    Reimbursable travel costs in excess of
     federal guidelines.                             $       (45)   $            $      (45)      $              $              $             $

    Penalties included in the indirect cost pool.         (1,039)                                                    (1,039)

    Various unallowable expenses erroneously
     charged to indirect costs from the
     Miscellaneous Executive Account.                     (1,011)                                                    (1,011)

    Reclass of Indirect Expenses to Direct

    Miscellaneous     expenses         erroneously
     charged to indirect costs.                          (52,158)                                                 (52,158)

    Various Display and Outreach costs
     erroneously charged to indirect costs.              (37,253)                    (6,112)                      (31,141)

    Marketing expenses erroneously charged to
     indirect costs.                                      (1,334)                                                    (1,334)

    Award costs erroneously charged to indirect
     costs.                                              (24,387)                                                                (24,387)

    International Science and Engineering Fair
      costs charged to indirect costs.                    (1,212)                                                                   (1,212)




                                                                                                                                                         cD

                                                                                                                                                         N
    W
	




                                           THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                        Schedule of Auditors' Adjustments and Eliminations - Indirect Costs (Cont.)
                                                          For the year ended December 31, 1998


                                                                                                           Computer
                Adjustment and Elimination                                              Travel and          Supplies                     Committee
                       Explanation                        Total            Salaries      Meeting          and Training   Miscellaneous    Expenses       AIP Dues

    Reclass of Indirect Expenses to Direct (Cont.)

    AIP dues erroneously charged to indirect costs.      $ (41,000)    $                $                  $               $             $               $ (41,000)

    Campaign for Physics erroneously charged to
     indirect costs.                                        (7,500)                            (7,500)

    Offsetting Revenues to Administrative
     Indirect Costs

    Miscellaneous income included in the Executive
     Account not offset against administrative
     indirect costs.                                        (6,899)                                                            (6,899)

    General contributions not         offset   against
     administrative indirect costs.                         (2,188)           (2,188)

    Grant income used for reimbursement of
     Executive administrative payroll not offset
     against indirect costs.                               (73,779)          (73,779)


    Inadequate Source Documentation

    Inadequate source documentation - credit card
      charges [no detailed receipt (i.e. restaurant
      bill, plane ticket etc.) was provided to
      determine the propriety of the expense (i.e.
	     alcoholic beverages, first class fare, etc.)].                                                                                                                    C
                                                            (1,935)	                           (1,101)	          (834)
                                                                                                                                                                        ¢.
	       Total                                            (251,740)     &--(75,%7)           $-(14,751)    $	     (834)     &-(91,5-V2)   -$-(25, 92)	 ~41,000           CD

                                                                                                                                                                        N
                                                                                                                                                                    )


                                                                                                                                                                        n
                                                                                                                                                                        O
    W
    N
                                           THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                           Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                                                         For the year ended December 31, 1999


                                                                                                Computer
          Adjustment and Elimination                                            Travel and       Supplies                      Officer's   Committee                Building
                 Explanation                           Total         Salaries    Meeting       and Training   Miscellaneous    Expense      Expenses AIP Dues       Expense

Unallowable Costs

Various unallowable expenses erroneously
  charged to indirect costs from the
  Miscellaneous Executive Account.                 $     (8,315) $              $              $               $     (8,315) $             $              $     $

Unallowable unrealized investment losses
  charged to indirect costs from the Building
  Expense Account.                                      (14,616)                                                                                                    (14,616)

Reclass of Indirect Expenses to Direct

Miscellaneous expenses erroneously charged to
  indirect costs.                                       (12,469)                                                    (12,469)

Various Display and Outreach costs erroneously
  charged to indirect costs.                            (26,377)                    (26,377)

Marketing expenses erroneously charged to
 indirect costs.                                           (306)                       (306)

Member Recruitment costs erroneously charged
 to indirect costs.                                        (334)                       (334)

Award costs erroneously charged to indirect
 costs.                                                 (29,290)                                                                               (29,290)

International Science and Engineering Fair costs
  charged to indirect costs.                             (2,493)                                                                                (2,493)




                                                                                                                                                                               c)
                                                                                                                                                                               to
                                                                                                                                                                               C



                                                                                                                                                                               CD



w
w
                                                                                                                                                                               w
                                                THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                             Schedule of Auditors' Adjustments and Eliminations - Indirect Costs (Cont.)
                                                               For the year ended December 31, 1999


                                                                                                         Computer
             Adjustment and Elimination                                                 Travel and        Supplies                           Officer's        Committee                  Building
                    Explanation                             Total         Salaries       Meeting        and Training       Miscellaneous     Expense           Expenses     AIP Dues     Expense

 Reclass of Indirect Expenses to Direct (Cont.)



AIP dues erroneously charged to indirect costs.         $    (50,589) $                 $                  $               $                  $                $            $ (50,589)   $

Campaign for Physics erroneously charged to
  indirect costs.                                            (13,500)                                                            (13,500)

Offsetting   Revenues         to    Administrative
  Indirect Costs

Miscellaneous income included in the Executive
  Account not offset against administrative
  indirect costs.                                            (47,532)                                                             (47,532)

Miscellaneous rental income not offset against
  rental expenses.                                            (6,622)                                                                                                                        (6,622)

General   contributions     not     offset    against
  administrative indirect costs.                              (1,045)         (1,045)

Grant income used for reimbursement of
  Executive administrative payroll not offset
  against indirect costs.                                    (23,197)        (23,197)



Inadequate Source Documentation

Inadequate source documentation - credit card
  charges [no detailed receipt (i.e. restaurant bill,
  plane ticket etc.) was provided to determine
  the propriety of the expense (i.e. alcoholic                                                                                                                                                         n

                                                                                                                                                                                                       !Z
  beverages, first class fare, etc.)].                        (9,246)                                            (8,648)                              (598)
                                                                                                                                                                                                       >r
                                                                                                                                                                                                       CD

                                                                                                                                                                                                       w
     Total                                                  24      1)   $    4 42)         S(27,017)          $ (8,648)       $ (81,816)         S   (598)    $ (31,783)   $ (50,589)   $-(21a3$      C.)


                                                                                                                                                                                                       0
                                                                                                                                                                                                       C)
w
.P
                                            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                             Schedule of Auditors' Adjustments and Eliminations - Indirect Costs
                                                           For the year ended December 31, 2000



          Adjustment and Elimination                                             Travel and                      Committee                         Building
                  Explanation                        Total            Salaries    Meeting       Miscellaneous     Expenses      AIP Dues           Expense
Unallowable Costs

Reimbursable travel costs in excess of federal
  guidelines.                                  $             (44) $              $       (44) $                  $              $              $

Various unallowable expenses erroneously charged
  to indirect costs from the Miscellaneous
  Executive Account.                                    (1,041)                                        (1,041)

Unallowable unrealized investment losses charged
 to indirect costs from the Building Expense
 Account.                                              (11,123)                                                                                       (11,123)

Reclass of Indirect Expenses to Direct

Various Display and Outreach costs erroneously
  charged to indirect costs.                           (22,670)                      (22,670)

Award costs erroneously charged to indirect costs.     (13,131)                                                      (13,131)

International Science and Engineering Fair costs
  charged to indirect costs.                            (2,195)                                                       (2,195)

AIP dues erroneously charged to indirect costs.        (51,084)                                                                     (51,084)

Campaign for Physics erroneously charged to
  indirect costs.                                      (38,534)                                       (38,534)




                                                                                                                                                                 n


                                                                                                                                                                 CD




w
v,
		




                                                     THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                                                  Schedule of Auditors' Adjustments and Eliminations - Indirect Costs (Cont.)
                                                                    For the year ended December 31, 2000



                 Adjustment and Elimination                                                            Travel and                         Committee                    Building
                        Explanation                               Total             Salaries            Meeting           Miscellaneous   Expenses    AIP Dues         Expense

     Offsetting Revenues to Administrative Indirect
      Costs

     Miscellaneous income included in the Executive
      Account not offset against administrative indirect
      costs.                                             $          (25,150)    $                  $                  $         (25,150) $            $            $

     Miscellaneous rental income not offset against
      rental expenses.                                               (9,484)                                                                                              (9,484)

     General    contributions     not    offset     against
       administrative indirect costs.                                (9,812)            (9,812)

     Inadequate Source Documentation

     Inadequate source documentation - credit card
       charges [no detailed receipt (i.e. restaurant bill,
       plane ticket etc.) was provided to determine the
       propriety of the expense (i.e. alcoholic beverages,
	      first class fare, etc.)].                                     (1,938)	                               (1,938)

       Total
                                                              S    (186 0 $--(9                )        $-(24,652)           $-(64,T25)      $ 1	     $   1, 84)       $(20,607)



                                                                                                                                                                                    n
                                                                                                                                                                                    Q



                                                                                                                                                                                    (7
                                                                                                                                                                                    41
                                                                                                                                                                                    (7
                                                                                                                                                                                    r-r
                                                                                                                                                                                    O


         W
	




                                                                                                                              Schedule C-5
                                THE AMERICAN ASSOCIATION OF PHYSCIS TEACHERS, INC.
                                  Schedule of Auditors' Adjustments and Eliminations - Direct Costs
                                    For the years ended December 31, 1997, 1998, 1999 and 2000



               Adjustments and Eliminations                                                  Year Ended
                       Explanation                           1997              1998              1999                2000              Total



    Exclusion - Subcontract

    Subcontract costs erroneously
    included in the direct cost base.                    $   (68,136)       $ (35,728)       $    (13,783)       $     (3,521)    $ (121,168)

    Reclass of Indirect Expenses to Direct

    Miscellaneous expenses erroneously
    charged to indirect costs.                                                 52,158            12,469                                  64,627

    Various Display and Outreach Costs erroneously
    charged to indirect costs                                 18,890           37,253            26,377              22,670             105,190

    Marketing expenses erroneously charged to indirect                          1,334               306                                   1,640

    Member Recruitment costs erroneously
    charged to indirect costs.                                                                      334                                        334

    Award costs erroneously charged to indirect costs.       22,156            24,387            29,290              13,131              88,964

    International Science and Engineering Fair costs
    charged to indirect costs.                                1,431             1,212             2,493               2,195               7,331

    AIP dues erroneously charged to indirect costs.          45,400            41,000            50,589              51,084            188,073

    Campaign for Physics erroneously charged to
    indirect costs.                                          19,500             7,500            13,500              38,534             79,034

    Total                                                $    39,241    $      129,116   $       121,575     $       124,093     $     414,025




                                                                                                                                  37
           THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                             Notes to Financial Schedules
             For the years ended December 31, 1997, 1998, 1999 and 2000


1. Summary of Significant Accounting Policies:

The accompanying financial schedules have been prepared in conformity with National
Science Foundation (NSF) instructions. Schedules B-1 to B-4 have been prepared from the
indirect cost proposals prepared by The American Association of Physics Teachers, Inc., and
Schedule A has been prepared based upon the results of the audit of Schedules B-1 to B-4.
The schedules do not present the complete financial position of The American Association of
Physics Teachers, Inc. In accordance with NSF instructions, there are no schedules of
financial position, statement of activities or statement of cash flows.

2.   Income Taxes:

The American Association of Physics Teachers, Inc. is a private nonprofit corporation,
incorporated under the laws of the Commonwealth of Massachusetts. The American
Association of Physics Teachers, Inc. is exempt from income taxes under Section 501(c)(3)
of the Internal Revenue Code. It is also exempt from Commonwealth of Massachusetts
franchise or income tax.




                                                                                        38
        SECTION IV

SUPPLEMENTARY INFORMATION




                            39
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


 INDEPENDENT AUDITORS' REPORT ON SUPPLEMENTARY INFORMATION

Our report on our audit of the schedule of over/(under) recovered indirect costs and
schedules of indirect and direct costs (the basic financial schedules) of The American
Association of Physics Teachers, Inc. for the years ended December 31, 1997, 1998, 1999
and 2000, appears in Schedules A and Schedules B-1 to B-4. The audit was made for the
purpose of forming an opinion on the basic financial schedules taken as a whole. The
supplementary information presented in Schedules D-1 to D-10 are presented for purposes of
supplementary analysis and are not a required part of the basic financial schedules. The
supplementary information has not been subjected to the auditing procedures applied in the
audit of the basic financial schedules and, accordingly, we express no opinion on them.




March 4, 2002




                                                                                       40
	




                                                                                                         Schedule D-1

                         National Science Foundation Award Number ESI 9619041
                                               Awarded To
                            The American Association of Physics Teachers, Inc.
                        Detailed Schedule of Over/(Under) Recovered Indirect Costs
                           For the Period May 1, 1997 to December 31, 2000 (A)
                                                  Interim
                                               (Unaudited)




    (A) The award period is May 1, 1997 to April 30, 2002.

    (B) The total direct costs plus the claimed indirect cost totals $1,715,792 for the period May 1, 1997 to April 30,
        2000. This amount agrees with the cumulative net disbursements reported on the FCTR as of the quarter ended
        December 31, 2000.

    (C) The approved indirect cost rate was 40.50%, the maximum provisional rate. Indirect costs were claimed at a
        rate of 41.34%.




    See accompanying independent auditors' report.                                                                 41
	




                                                                                                          Schedule D-2

                        National Science Foundation Award Number DUE 9450160
                                               Awarded To
                            The American Association of Physics Teachers, Inc.
                        Detailed Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period January 1, 1997 to December 31, 2000(A)
                                                  Interim
                                               (Unaudited)




    (A) The award period is March 15, 1995 to February 28, 2001.

    (B) The total direct costs plus the claimed indirect cost totals $742,362 for the period January 1, 1997 to February
        28, 2000. This amount added to the cumulative costs at December 31, 1996 of $405,869, agrees with the
        cumulative net disbursements reported on the FCTR as of the quarter ended December 31, 2000.

    (C) The approved indirect cost rate was 42%. Indirect costs were claimed at a rate of 42.48% for the above period.




    See accompanying independent auditors' report.                                                                   42
	




                                                                                                           Schedule D-3

                        National Science Foundation Award Number DUE 9554625
                                               Awarded To
                            The American Association of Physics Teachers, Inc.
                        Detailed Schedule of Over/(Under) Recovered Indirect Costs
                          For the Period January 1, 1997 to February 29, 2000(A)
                                                    Final
                                               (Unaudited)




    ( A) The award period is March 15, 1996 to February 29, 2000.

    (B) The total direct costs plus the claimed indirect cost totals $449,550 for the period March 1, 1997 to February 29,
        2000. This amount added to the cumulative costs at December 31, 1996 of $99,855, was reconciled to the net
        disbursements reported on the FCTR as of the quarter ended March 31, 2000.

    (C) The approved indirect cost rate was 40% of direct costs plus 1% of subcontract costs. Indirect costs were
        claimed at a rate of 33.75% of direct costs plus 1 % of subcontract costs for the above period.

    (D) Under-recovered indirect costs cannot be recovered on this award since the award is closed and the total costs
        (direct and indirect) were billed up to the budget maximum.




    See accompanying independent auditors' report.                                                                    43
	




                                                                                                          Schedule D-4

                        National Science Foundation Award Number DUE 9554738
                                               Awarded To
                            The American Association of Physics Teachers, Inc.
                        Detailed Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period January 1, 1997 to December 31, 2000(A)
                                                   Final
                                               (Unaudited)




    (A) The award period is February 15, 1996 to December 31, 2000.

    (B) The total direct costs plus the claimed indirect cost totals $268,071 for the period January 1, 1997 to
        December 31, 2000. This amount added to the cumulative costs at December 31, 1996 of $45,070, less the
        amount in excess of total award budget of $43,141, agrees with the cumulative net disbursements reported on
        the FCTR as of the quarter ended December 31, 2000.

    (C) The approved indirect cost rate was 40%. Indirect costs were claimed at a rate of 36.94% for the above period.

    (D) The total direct and indirect costs reflected in AAPT's books of account exceeds the total maximum award
        budget by $43,141.

    (E) Under-recovered indirect costs cannot be recovered on this award since the award is closed and the total costs
        (direct and indirect) were billed up to the budget maximum.




    See accompanying independent auditors' report.                                                                  44
	




                                                                                          Schedule D-5

                      National Science Foundation Award Number DUE 9816632
                                             Awarded To
                          The American Association of Physics Teachers, Inc.
                      Detailed Schedule of Over/(Under) Recovered Indirect Costs
                       For the Period September 1, 1998 to August 31, 2000(A)
                                                 Final
                                             (Unaudited)

                                                              Year Ended
          Cost Category	                                12/31/98	     12/31/99            Total




                                                                          (D)

    (A) The award period is September 1, 1998 to August 31, 2000.

    (B)    The total direct costs plus the claimed indirect cost totals $90,053 for the period
           September 1, 1998 to August 31, 2000. This amount less the amount in excess of the total
           award budget of $45,482, agrees with the cumulative net disbursements reported on the
           FCTR as of the quarter ended December 31, 2000.

    (C)    The approved indirect cost rate was 42%. Indirect costs were claimed at a rate of 50.78%.

    (D) The total direct and indirect costs reflected in AAPT's books of account exceeds the total
        maximum award budget by $45,482.



    See accompanying independent auditors' report.                                                 45
	




                                                                                 Schedule D-6

                   National Science Foundation Award Number DUE 9821027
                                          Awarded To
                       The American Association of Physics Teachers, Inc.
                   Detailed Schedule of Over/(Under) Recovered Indirect Costs
                     For the Period October 15, 1998 to August 14, 1999(A)
                                              Final
                                          (Unaudited)
                                                         Year Ended




                                                                                  (B)




    (B) The total direct costs of $32,663 for the period October 15, 1998 to August 14, 1999
        agrees with the FCTR for the quarter ended September 30, 1999.

    (C) No indirect costs were claimed on this grant.




    See accompanying independent auditors' report.                                        46
                                                                                     Schedule D-7

                  National Science Foundation Award Number ESI 9150111
                                        Awarded To
                     The American Association of Physics Teachers, Inc.
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                     For the Period January 1, 1997 to June 30, 1997(A)
                                            Final
                                        (Unaudited)


                                                                        Year Ended
     Cost Category                                                       12/31/97

Personnel costs
Equipment
Participant support costs
Subawards
Other direct costs

Total direct costs
Exclusions:
    Equipment
    Participant support
    Subawards>than $25,000

Modified total direct cost base

Final audited indirect cost rate                                          30.00%

Calculated allowable indirect costs                                       27,707
Claimed indirect costs (C)                                                27,849(B)

Over/(under) recovered indirect costs                               $        142

(A) The award period is July 1, 1991 to June 30, 1997.

(B) The total direct costs plus the claimed indirect cost totals $134,396 for the period
    January 1, 1997 to June 30, 1997.      The cumulative amount for period prior to
    December 31, 1996 AAPT was unable to locate. However, the amount claimed for the
    period equaled the amount reported on the FCTR for the above noted period as of
    December 31, 1997.

(C) The approved indirect cost rate was the maximum provisional of 30% as of July 1991.
    Indirect costs were claimed at a rate of 30.15%.




See accompanying independent auditors' report.                                              47
                                                                                      Schedule D-8

                 National Science Foundation Award Number ESI 9453830
                                        Awarded To
                    The American Association of Physics Teachers, Inc.
                 Detailed Schedule of Over/(Under) Recovered Indirect Costs
                     For the Period January 1, 1997 to May 31, 1997(A)
                                            Final
                                        (Unaudited)


                                                                           Year Ended
     Cost Category                                                          12/31/97

Personnel costs
Equipment
Participant support costs
Subawards
Other direct costs

Total direct costs
Exclusions:
    Equipment
    Participant support
    Subawards>than $25,000

Modified total direct cost base

Final audited indirect cost rate                                               36.15%

Calculated allowable indirect costs                                            1,462
Claimed indirect costs (C)                                                     1,940(B)

Over/(under) recovered indirect costs                                      $    478


(A) The award period is June 15, 1994 to May 31, 1997.

(B) The total direct costs plus the claimed indirect cost totals $6,426 for the period January 1,
    1997 to May 31, 1997. The cumulative amount for period prior to December 31, 1996
    AAPT was unable to locate. The amount claimed for the audit period was higher by $125
    than the amount reported on the FCTR for the above noted period as of September 30,
    1997.

(C) The approved indirect cost rate was 48%. Indirect costs were claimed at a rate of 47.98%.




See accompanying independent auditors' report.                                                48
	




                                                                                        Schedule D-9

                     National Science Foundation Award Number ESI 9150173
                                            Awarded To
                         The American Association of Physics Teachers, Inc.
                     Detailed Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period January 1, 1997 to April 30, 1997(A)
                                                Final
                                            (Unaudited)




    (A) The award period is December 15, 1991 to April 30, 1997.

    (B)   The total direct costs plus the claimed indirect cost totals $32,233 for the period
          January 1, 1997 to April 30, 1997. The cumulative amount for the period prior to
          December 31, 1996 AAPT was unable to locate. The amount claimed on the FCTR for the
          audit period was higher by $12,804 than the amount reported on the general ledger for the
          above period as of the quarter ended June 30, 1997.

    (C)   The approved indirect cost rate was 25%.       There were no amounts claimed per the
          accounting records.

    (D)   Under-recovered indirect costs cannot be recovered on this award since the award is closed
          and the total costs (direct and indirect) were billed up to the budget maximum.

    See accompanying independent auditors' report.                                               49
	




                                                                                         Schedule D-10

                     National Science Foundation Award Number DUE 946330
                                            Awarded To
                         The American Association of Physics Teachers, Inc.
                     Detailed Schedule of Over/(Under) Recovered Indirect Costs
                         For the Period January 1, 1997 to June 30, 1997(A)
                                                Final
                                            (Unaudited)

                                                                                  Year Ended
	         Cost Category	                        	                                  12/31/97

    Personnel costs
    Equipment
    Participant support costs
    Subawards
    Other direct costs

    Total direct costs
    Exclusions:
         Equipment
         Participant support
         Subawards>than $25,000

    Modified total direct cost base

    Final audited indirect cost rate                                                 36.15%

    Calculated allowable indirect costs                                             4,610
    Claimed indirect costs (C)                                                      3,346(B)

    Over/(under) recovered indirect costs (D)                                 $     (1,264)

    (A)   The award period is August 31, 1994 to June 30,1997.

    (B) The total direct costs plus the claimed indirect cost totals $23,871 for the period January 1,
        1997 to June 30, 1997. The cumulative amount for the period prior to December 31, 1996
        AAPT was unable to locate. The amount claimed for the audit period was higher by
        $3,546 than the amount reported on the FCTR for the above period as of the quarter ended
        June 30, 1997.

    (C)   The award letter did not state a rate. The budget submitted with the proposal by AAPT
          indicated a rate of 24.63%. Indirect costs were claimed at a rate of 26.24%.

    (D) Under-recovered indirect costs cannot be recovered on this award since the award is closed
        and the total costs (direct and indirect) were filled up the budget maximum.


    See accompanying independent auditors' report.                                                 50
    SECTION V


AWARDEE'S RESPONSE




                     53
 Compliance Finding 1         We concur and will attend training on, how to prepare an
                              indirect cost proposal. We will write policies and procedures for
                              the classification of direct and indirect costs.

Compliance Finding 2          We concur and will write policies and procedures to
                              identify applicable credits and properly offset.

Compliance Finding 3          We concur and will write policies and procedures to identify
                              costs that should be excluded from the direct cost base.

Compliance Finding 4          We concur and will submit an indirect cost proposal
                              annually and follow up with NSF as needed.

Compliance Finding 5          We concur and will review our chart of accounts to ensure the
                              identification and segregation of unallowable charges.

Internal Control Finding I   We concur and will develop_ policies and procedures to
                             document our indirect cost calculation process Staff will
                             attend training on how to develop indirect cost proposals.

Internal Control Finding I We concur and will develop procedures concerning the
                             adequacy and retention of original supporting
                             documentation. .




                                                                                                  52
                                                                                  Page 2

     Internal Control Finding 2 , We concur and will develop policies and procedures to ensure
                                    adequate controls over the time and reporting system.

     If you have any questions, please call me.

                                                           Sincerely,




Xc
	




    MEMORANDUM

    To:             Donna Fortunat, Director
                    Division of Acquisition and Cost Support

                    Mary Santonastasso, Director
                    Division of Grants and Agreements
                                 tJ . Can,
    From:           De orah H. Cureton
                    Associate Inspector General for Audit

    Subject:        Audit Report 03-1004: Financial and Compliance of Indirect Costs for the
                    Year Ended June 30, 2000, of the American Association of Physics
                    Teachers, College Park, Maryland

            Attached is the final Financial and Compliance Audit of Indirect Costs for the
    four-year period ending December 31, 2000, of the American Association of Physics
    Teachers (AAPT) located in College Park, Maryland. M.D. Oppenheim & Company,
    P.C., an independent public accounting firm under contract to the Office of the Inspector
    General, performed the audit.

           NSF is the agency responsible for negotiating and approving indirect cost rates for
    AAPT on behalf of the Federal government. For the four-year period under audit, AAPT
    had ten active awards for which it had received $7.7 million in NSF funding and had
    claimed $713,223 in indirect costs.

            The audit found that AAPT did not have adequate control procedures related to
    the preparation and submission of indirect cost proposals. The total adjustments
    necessary to correct errors in the rate proposals amounted to $929,175 in total reductions
    to the indirect cost pools and $414,025 total additions to the direct cost bases for the four-
    year period. As a result, AAPT over-charged $58,906 or 8% of total claimed indirect
    costs on five of its NSF awards active during the four years. In addition, AAPT did not
    submit indirect cost proposals to NSF annually as required by regulation. The identified
    errors occurred because AAPT staff did not completely understand federal regulations
    related to the preparation and submission of indirect cost proposals and AAPT did not
    have written policies and procedures documenting this process..

           In response to the audit, AAPT agreed with the findings and recommendations
    and stated that written policies and procedures will be developed and implemented to
    address these issues and that a proposal will be submitted annually to NSF.
        In accordance with OMB Circular A-50, Audit Followup, and NSF's Standard
Operating Guidance 2001-4, Policies and Procedures to Audit Reports Issuance and
Resolution of Audit Findings Contained in Audits of NSF Awardees, we request that NSF
submit a written corrective action plan to our office identifying the specific actions and
milestone dates for addressing our recommendations.

       We thank you and your staff for the cooperation extended to us during this audit.
If you have any questions about this report, please contact James Noeth on extension
5005, or William Harrison, on extension 4992.
                  THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
Details of Adjustments to Indirect Costs - Unallowable Costs Charged to the Miscellaneous Executive Account
                                    For the year ended December 31, 1997
                 THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
Details of Adjustments to Indirect Costs - Unallowable Costs Charged to the Miscellaneous Executive Account
                                    For the year ended December 31, 1998
                  THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
Details of Adjustments to Indirect Costs - Unallowable Costs Charged to the Miscellaneous Executive Account
                                    For the year ended December 31, 1999
                  THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
Details of Adjustments to Indirect Costs - Unallowable Costs Charged to the Miscellaneous Executive Account
                                    For the year ended December 31, 2000
	




                       THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
               Details of Adjustments to Indirect Costs - Reclass of Indirect Expenses to Direct Expenses
                                           From the Miscellaneous Account
                                         For the year ended December 31, 1998


                                                                                      INDIRECT COST
                          Tran            G/L ACCT                                    PROPOSAL LINE         INDIRECT
    VENDOR/PAYEE         DATE             NUMBER            ACCOUNT NAME                ITEM NAME             COST
	




                       THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
               Details of Adjustments to Indirect Costs - Reclass of Indirect Expenses to Direct Expenses
                                           From the Miscellaneous Account
                                         For the year ended December 31, 1999


                                                                  INDIRECT COST
                              Tran            G/L ACCT            PROPOSAL LINE                             INDIRECT
    VENDOR/PAYEE	            DATE	            NUMBER ACCOUNT NAME ITEM NAME 	                                   COST
	




                    THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                    Details of Adjustments to Indirect Costs - Inadequate Source Documentation
                                      For the year ended December 31, 1997


                                                                                         INDIRECT COST
                   CHECK       CHECK          G/L ACCT                                   PROPOSAL LINE   INDIRECT
    VENDOR/PAYEE   DATE        NUMBER         NUMBER            ACCOUNT NAME               ITEM NAME       COST
	




                            THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                           Details of Adjustments to Indirect Costs - Inadequate Source Documentation
                                             For the year ended December 31, 1998


                                                                                               INDIRECT COST
                   CHECK      CHECK          G/L ACCT                                          PROPOSAL LINE   INDIRECT
    VENDOR/PAYEE   DATE       NUMBER         NUMBER             ACCOUNT NAME                     ITEM NAME       COST
	




                    THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                    Details of Adjustments to Indirect Costs - Inadequate Source Documentation
                                      For the year ended December 31, 1999


                                                                                            INDIRECT COST
                   CHECK      CHECK          G/L ACCT                                       PROPOSAL LINE   INDIRECT
    VENDORIPAYEE   DATE       NUMBER         NUMBER            ACCOUNT NAME                   ITEM NAME       COST
		




                      THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
                      Details of Adjustments to Indirect Costs - Inadequate Source Documentation
                                        For the year ended December 31, 2000


                              CHECK
                                                                                       INDIRECT COST
                    CHECK                    G/L ACCT                                  PROPOSAL LINE   INDIRECT
                              NUMBER
     VENDOR/PAYEE   DATE                     NUMBER            ACCOUNT NAME              ITEM NAME       COST
THE AMERICAN ASSOCIATION OF PHYSICS TEACHERS, INC.
  Details of Adjustments to Indirect Costs -Missing Documentation
                For the year ended December 31, 1997
